U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Territory of American Samoa v. National Marine Fisheries Service, et al.,
No. 20-1180
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 22,
2021. The government’s response is now due, after one extension, on April 28, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1180
TERRITORY OF AMERICAN SAMOA
NATIONAL MARINE FISHERIES SERVICE, ET AL.

FAINU'ULELEI FALEFATU ALA'ILIMA-UTU
ATTY. GENERAL OF AMERICAN SAMOA
OFFICE OF THE GOVERNOR
PAGO PAGO
AMERICAN SAMOA
, 96799
684-633-4116
INFO@GO.AS.GOV
DON HONG
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
DON.HONG@KIRKLAND.COM
MICHAEL L. IOSUA
IMANAKA ASATO, LLLC
745 FORT STREET MALL
17TH FLOOR
HONOLULU, HI 96813
808-521-9500
MIOSUA@IMANAKA-ASATO.COM
MICHAEL FRANCIS WILLIAMS
KIRKLAND AND ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-879-5123
MICHAEL.WILLIAMS@KIRKLAND.COM

